I

SUPREME COURT OF THE UNITED STATES

James L. Martin, Petitioner

: No.

V.

imm

National General Assurance Company,
Respondent

ILED
AUG 29 2019

Petitioner's Rule 30 Application to Justice Sotomayor (Justice Alito is ineligible)
for Extension of Time to file Petition for a Writ of Certiorari to the
Supreme Court of Delaware
I, James L. Martin, apply for an extension of time to file a Petition for a
Writ of Certiorari to the Supreme Court of Delaware this 29th day of August
2019 for the following reasons, certified to be true and correct based on my
personal knowledge in accord with 28 USC Sec. 1746:
1. The jurisdiction of this court to review the case is at 28 USC Sec. 1257(a).
2. The judgment to be reviewed was issued on 6-5-19, at Ex-la to 6a, and
the petition for rehearing en banc was denied on 6-25-19, at Ex-7a.
3. The 90-day period for filing a petition for a writ of certiorari expires on
9-23-19. An 60-day extension of time, until 11-22-19, in light of pending litigation
against defendant David Nixon, the motorist whose five (5) traffic violations
caused the crash that created the claim against respondent National General
Assurance Company. The trial is not scheduled until next month, and a verdict
may affect at least one issue for review by certiorari here.
4. Justice Alito is disqualified in view of the fifteen-page Application to
Associate Justice Samuel Alito for Recusal and for Disqualification, filed at No.

06-55, in Martin v. United States Court of International Trade, and incorporated
herein by reference.
5. The additional time sought should possibly restrict issues presented for
review.
WHEREFORE, this Application should be granted to allow for a sixty-day
extension for filing a certiorari petition, until 11-22-19.

a£ I^OaXiA^

James L. Martin; attorney; 805 W. 21st St.; Wilmington, DE 19802-3818
(302) 652-3957 e-mail MARTINJIML@aol.com

2

